                                          NATIONAL SCIENCE FOUNDATION
                                          OFFICE OF INSPECTOR GENERAL
                                            OFFICE OF INVESTIGATIONS

                                     CLOSEOUT MEMORANDUM

Case Number: A12090060                                                         Page 1 of 1


         Through an OIG proactive review, we identified a proposal with copied text. The
         attached Report of Investigation describes the University's and our investigations
         that resulted in a finding of research misconduct. The closeout documents consist of
         this Memorandum, our report, and NSF's adjudication. This case is closed with no
         further action taken.




NSF OIG Form 2 (11102)
                                                          Sensitive



       National Science Foundation
        Office of Inspector General




                   Report of Investigation
                  Case Number A12090060

                            September 12, 2013


                                                                          .:···   •   ••    •• • • • •   '   J




                       This Report of.Irivestigatt()ri 18 proyided.: to yoll
                                EOROFFICI.AB USE ONLY~
It····c?rlt~irls• '.p'fote. · .· .~·.,. , . i·•p·er$b~~.l.•:.il1fotcl~tiol1,.•,•·t.~~,···un.8.uth?tiz2d····'di§c~6~'~re····?f•. w~ic~
ll1ay,;resyltinpl:)l'~?naleriminalliabilityunderthe:Priva.cyt\ct,q,;{_J.~·C?§.,552a.
Thi~ :.report. may. be,,;furfher di~closed \V~thil1                           N$f
                                                     prz,ly to ingiyid1lal~y\Vho must'
h.ave kijowledge'of its contents to faGilitate NSF's ~st?essm~11t a11d resolution of
this 1n~tter.;Thisi ~~gort ~~(                 pe.
                                  disclosed· o11tsid~ .NSF only under the ,Fie~donJ.of
Information and :i?l'!YaGY Acts; 5 U.S. C. §§ 552 & 552a. Please tak~ appropriate
precautions handli:tig.this report ofinvestigatiori ..
                                                 Sensitive


                                       Executive Summary
       Through OIG's proactive review, we identified a proposal that appeared to
have plagiarized text. The PI's explanation to our inquiry did not dispel the
allegation, so we referred it to the University for investigation. The University
found additional plagiarism and concluded the PI intentionally plagiarized and took
several actions in response. We identified more plagiarism, identifying a pattern.
We concur with the University's findings, and we recommend NSF make a finding
of research misconduct and take several additional actions as described in this
report of investigation.


                                            OIG's Inquiry
       Through our proactive review, we identified an NSF-funded proposal (written
by a PI-the Subject) 1 that contained approximately 80 lines of copied text from 6
sources. Although five of the sources were referenced in the proposal, only one of
those was cited near the copied text. 2 None of the copied text was offset or
distinguished so as to enable a reader to differentiate the Subjects' own text from
the copied text. We contacted the Subject to inquire about the alleged plagiarism. 3
The Subject said 4 he had time constraints and family hardships that "probably
messed up my proposal with different versions of revisions." 5 He acknowledged
misplaced references (all the sources appear in the reference section), and he should
have described text using his own words instead of the identical words of the
sources. He said the proposed ideas and preliminary results were original, and the
copied text represented background material.
      He noted text from one of the sources originally appeared in a proposal 6 on
which he was co-PI, and one of the authors of the source was the PI. Furthermore,
the original proposal was submitted before the paper.          We confirmed this
information and removed that source from consideration. 7
       We found the Subject's explanation inadequate to dispel the allegation and
determined there was sufficient substance to proceed to an investigation. We
referred the investigation to the Subject's home institution (the University).B

                                was submitted by                                (the University) and
                               Subject) as the PI.   was nu.Lu.vu.
     2      source was cited to the reference near some of the
of text copied from this source.
     3 Tab 2 is GIG's Inquiry letter sent to the Subject.
     4 Tab 3 is the Subject's response.

    5~
    6 - - - w a s submitted by the University and lists                        as PI and the Subject
as co-PI.
    7 Although we originally questioned copying from six sources, we accepted the Subject's

explanation for one of those sources, so Tab 1 contains the five remaining sources we referred to the
University.
    sTab 4 is our referral letter to the University.


                                                                                                   2
                                              Sensitive


                                  University Investigation
       The University appointed and charged a Committee to determine whether
research misconduct occurred, assess its gravity, and recommend appropriate
action. 9 The Committee reviewed the Subject's response to NSF, his proposals, and
interviewed him. One Committee member is an editor of a journal and had access
to plagiarism software through the journal. That Committee member found
additional copying without appropriate attribution in another of the Subject's recent
proposals.
      In his response to NSF, the Subject said time commitments (due to a family
issue and university demands) prevented him from replacing copied sections with
original text. In his interview with the Committee, he admitted his typical
procedure was to copy and paste large sections of text from papers into his draft.
When questioned about plagiarism in other proposals, the Committee noted the
Subject abandoned his one-time excuse of family issues, but continued to assert he
copy and pasted, but forgot to replace copied sections. "The Committee was not
convinced by this explanation, since portions of the plagiarized sections were edited
already by [the Subject]; for example, 'will be' was substituted for 'were' in large
contiguous sections of text." 10 The Subject said he was unaware of having
plagiarized elsewhere, but the Committee determined "at least one proposal
submitted within the last two years contained a similar (high) degree of plagiarism,
and plagiarism also occurred to varying degrees in other proposals submitted by
[the Subject]."ll
      The Committee interpreted "impact on the research record" as "whether the
plagiarism may have substantively influenced NSF's decision to fund the
proposal" .12 Due to the presence of plagiarized text in the proposed work, the
Committee required the Subject to demonstrate that he understood the
methodology that he copied. The Subject explained the methodologies were common
and provided some papers from his group using those methodologies. Because the
papers the Subject provided were submitted after the proposal, the Committee
deemed them inconclusive. However, in the Committee's expert opinion, the
Subject's argument that the methodology was common had merit and was accepted.
Based on a preponderance of the evidence, the Committee concluded the Subject
committed plagiarism, and the plagiarism was intentional.
      The Committee recommended the University: 1) require the Subject to
complete in-person RCR training; 2) place a letter of reprimand, which describes the
consequences of a repeat offense, in the Subject's employment record; 3) require, for
a period of 2 years, the Subject to certify to the University that each proposal and


   9 Tab 5 is the University's cover letter to the Committee report, the report, and the adjudication.
We will refer to pages in Tab 5 by the page number of the file.
   1o Tab 5, p. 4
    11   Ibid.
    12   Ibid.


                                                                                                     3
                                               Sensitive


manuscript is free of plagiarism_13 The adjudicator 14 accepted the Committee's
findings and recommendations and issued a strongly worded letter of reprimand.l5
Additionally, the adjudicator informed the Subject that, for 2 years, all his proposals
and papers would be subject to random audits to detect any plagiarism.


                                        OIG's Assessment
       NSF's Research Misconduct Regulation states that a finding of misconduct
requires: (1) there be a significant departure from accepted practices of the relevant
research community; (2) the research misconduct be committed intentionally, or
knowingly, or recklessly; and (3) the allegation be proven by a preponderance of the
ev.idence. 16
       The Committee's reasoning regarding the Subject's plagiarism is sound, and
we concur-the Subject plagiarized in the proposal he submitted to NSF. The
University indicated the Subject had plagiarized in other, recent proposals, but it
did not identify the plagiarized text. We reviewed the Subject's recent proposals
and confirmed the existence of additional proposals that contained plagiarism. The
Subject's most recent proposall 7 contained approximately 81 lines of text and 3
figures copied from 5 sources without appropriate attribution. Four of the sources
are not referenced in the proposal, and the one that is referenced is not cited near
the copied text. None of the copied text is distinguished from the Subject's own text,
and none of the figures are cited to the original source.
       An earlier proposal 18 contained approximately 98 lines of text copied
verbatim from 6 sources without appropriate attribution. Three sources are not
referenced; two are referenced, but not cited anywhere in the text of the proposal;
and one reference was referenced and cited near the copied text. However, the 44
lines of text copied from this source have 14 embedded referencesl9; none of the text
copied from any of the 6 sources is distinguished from the Subject's original text.
Thus, the Subject copied 259 lines of text and 3 figures into 3 proposals submitted to
NSF.
       We conclude the Subject, by not citing the sources from which he copied, and
not distinguishing that text from his own, failed to provide appropriate credit to the
authors he copied. Therefore, we conclude the Subject's act meets NSF's definition
of plagiarism.

    13~
    14 - - - ,            Executive Vice President for Academic Mfairs and Provost.
    15   Tab 5, pp. 6-7
    1645C.F.~
   17   Tab 6 ; - was submitted by the University and lists the Subject as the PI. It was
declined.
     18 Tab 7;              was submitted by the University and lists the Subject as the PI. It was
declined.
     19 Embedded references are citations copied with the text and make it appear the text was cited

to those embedded references, rather than the source from which the text was actually copied.


                                                                                                  4
                                      Sensitive


                                      The Act
       The Subject copied approximately 259 lines of text and 3 figures from 16
different source documents into 3 NSF proposals on which he was the PI. As
described above, by failing to appropriately distinguish verbatim copied text from
his own original text, the Subject presented the work of others as his own work and,
thus, failed to give appropriate credit to the original authors, which meets NSF's
definition of plagiarism. Similarly, the University concluded the Subject's copying
was plagiarism.
                                       Intent
       The Subject told the Committee he copied text from sources, but claimed time
commitments, due to a family issue and University demands, prevented him from
rewriting the text. The Subject said he had not plagiarized elsewhere. The
Committee then found additional plagiarism in another proposal that obviated the
Subject's excuse. It noted the Subject edited the plagiarized sections to integrate
with his own text (including changing tenses of single words within the plagiarized
text) and therefore did more than just "copy and paste", as the Subject had argued.
The University concluded, based on the preponderance of evidence, the Subject
plagiarized intentionally.
       On top of the additional plagiarism the Committee found, we found
additional plagiarism in the Subject's other proposals. The Subject consistently:
failed to reference and cite the sources from which he copied; included embedded
references; and failed to distinguish his text. We concur with the University and
conclude the Subject intentionally plagiarized.
                               Significant Departure
       We conclude the Subject knowingly plagiarized text and figures into his
proposal without appropriately distinguishing the text from his own work. In doing
so, the Subject significantly departed from the accepted practices of his research
community and NSF. The Director of Research Compliance, in his cover letter,
stated "By all measures, [plagiarism] constitutes a significant departure from
accepted practices at [the University]". 20 We concur with the University and
conclude the Subject's actions are a significant departure from the accepted
practices of his research community.
      Accordingly, we conclude by the preponderance of evidence standard that the
Subject intentionally plagiarized, and the plagiarism was a significant departure
from accepted standards; hence, the Subject committed research misconduct.




   20   Id., p. 1


                                                                                   5
                                           Sensitive


                           OIG's Recommended Disposition
      In deciding what actions are appropriate when making a finding of research
misconduct, NSF must consider several factors. These factors include how serious
the misconduct was; degree of intent; whether it was an isolated event or part of a
pattern; its impact on the research record; and other relevant circumstances. 21
                                         Seriousness
      Plagiarism violates research integrity and is a significant departure from
accepted practices in the research community. We conclude the amount of
plagiarized material is sufficiently serious to · warrant a finding of research
misconduct. Indeed, the adjudicator stated "The finding of plagiarism is a very
serious offense'' 22 and warned the Subject he would be terminated if he was directly
involved in another case of plagiarism.
                              Impact on the Research Record
      As noted above, the Committee interpreted this factor as whether the
plagiarism may have affected NSF's decision to fund the proposal. It concluded it
would not have. In order to have an independent assessment, we asked the
Program Officer 23 who made the funding decision to evaluate the proposal. 24 He
stated if he had known about the plagiarized text, he likely would have made the
same decision.
      We consider the impact on the research record to be slight to moderate. One
proposal2 5 was funded; therefore it is available to the public through a Freedom of
Information Act request. The other two proposals were declined.
                                           Pattern
       Both the University and OIG found evidence of pattern of plagiarism. In
addition to the copying in the proposal we referred to the University, the Committee
found the Subject had copied in other proposals. We reviewed two additional
proposals authored by the Subject and found copying in them.


                                The Subject's Response
        The Subject did not respond to our draft report.




   21 45 C.F.R. §689.3(b)

   2 2 - T.6  ab5
   23                   was then a Program Officer i n -
   24
   25




                                                                                   6
                                            Sensitive


                                   Recommendations
     Based on the evidence, we recommend NSF:
     •   Send the Subject a letter of reprimand notifying him that NSF has made a
         finding of research misconduct. 26
     •   Require the Subject to certify to the Assistant Inspector General for
         Investigations (AlGI) his completion of a responsible conduct of research
         training program and provide documentation of the program's content
         within 1 year of NSF's finding.27 The instruction should be in an
         interactive format (e.g., an instructor-led course) and specifically include
         plagiarism.
     •   Require the Subject to certify his compliance with the requirements
         imposed by the University as a result of its investigation.


     For a period of 2 years as of the date of NSF's finding:
     •   Bar the Subject from participating as a peer reviewer, advisor, or
         consultant for NSF.2s
     •   Require for each document (proposal, report, etc.) to which the Subject
         contributes for submission to NSF (directly or through an institution),
            o the Subject to submit a contemporaneous certification to the AlGI
              that the document does not contain plagiarism, falsification, or
              fabrication. 29
            o the Subject to submit contemporaneous assurances from a
              responsible official of his employer to the AlGI that the document
              does not contain plagiarism, falsification, or fabrication. 30




26 A Group I action 45 C.F.R. 689.3(a)(l)(i)
27 This action is similar to Group I actions 45 C.F.R. 689.3(a)(l).
28 A Group III action 45 C.F.R. 689.3(a)(3)(ii).
29 This action is similar to 45 C.F.R. 689.3(a)(l)(iii).
so A Group I action 45 C.F.R. 689.3(a)(l)(iii).



                                                                                    7
                                 NATIONAL SCIENCE FOUNDATION
                                      4201 WILSON BOULEVARD
                                     ARLINGTON, VIRGINIA 22230



                                                                                FEB Z5 1014

      OFFICE OF THE
        DIRECTOR




CERTIFIED MAIL --RETURN RECEIPT REQUESTED




        Re:      Notice of Research Misconduct Determination


 Dear Dr. •

 While an employee                                       you served as Principal Investigator on
 three proposals for funding to the National Science Foundation (NSF). As documented in the
 attached Investigative Report prepared by NSF's Office oflnspector General (OIG), these
 proposals contained plagiarized material.

 Research Misconduct and Proposed Sanctions

 Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification, or
·plagiarism in proposing or performing research funded by NSF ... " 45 CPR 689.1(a). NSF
 defmes "plagiarism" as "the appropriation of another person's ideas, processes, results or words
 without giving appropriate credit." 45 CFR 689.l(a)(3). A finding of research misconduct
 requires that:

         (1) There be a significant departure from accepted practices of the relevant research
             community;
         (2) The research misconduct be committed intentionally, or knowingly, or recklessly;
             and
         (3) The allegation be proven by a preponderance of evidence.

 45 CPR 689 .2(c).
                                                                                            Page2
Your proposals to NSF contained substantial copied material: 259lines and three figures copied
from sixteen sources. Your submission of proposals with substantial copied material constitutes
plagiarism and meets the applicable definition of"research misconduct" set forth in NSF's
regulations.

Pursuant to NSF's regulations, the Foundation must also determine whether to make a finding of
misconduct based on a preponderance of the evidence. 45 CFR 689.2(c). After reviewing the
Investigative Report, including your University's findings, NSF has determined that, based on a
preponderance of the evidence, your plagiarism was committed intentionally and constituted a
significant departure from accepted practices of the relevant research community. I am,
consequently, issuing a finding of research misconduct against you.

NSF's regulations establish three categories of actions (Group I, II, and III) that can be taken in
response to a finding of misconduct. 45 CFR 689.3(a). Group! actions include issuing a letter
of reprimand; conditioning awards on prior approval of particular activities from NSF; requiring
that an institution or individual obtain special prior approval of particular activities from NSF;
and requiring that an institutional representative certify as to the accuracy of reports or
certifications of compliance with particular requirements. 45 CFR 689.3(a)(l). Group II actions
include award suspension or restrictions on designated activities or expenditures; requiring
special reviews of requests for funding; and requiring correction to the research record. 45 CFR
689.3(a)(2). Group III actions include suspension or termination of awards; prohibitions on
participation as NSF reviewers, advisors or consultants; and debarment or suspension from
participation in NSF programs. 45 CFR 689.3(a)(3).

In determining the severity of the sanction to impose for research misconduct, I have considered
the seriousness of the misconduct and the finding that there was a pattern of plagiarism. I have
also considered other relevant circumstances. 45 CFR 689 .3(b).

After assessing the relevant facts and circumstances of this case and NSF's regulations, I am
taking the following actions:

    •  You must certify that you have complied fully with any
       imposed sanctions;
    • Within one year of the date of this notice, you must complete a responsible conduct of
       research training program, for which the instruction should be an interactive format (e.g.,
      .an instructor-led course) and which specifically includes plagiarism. You must provide
       documentation of the program's content and proof of its completion to the OIG;
    • For a period of two years from the date of this notice, you are required to submit
       certifications to the OIG that any proposal or report you submit to NSF as a Principal
       Investigator (PI) or co-PI does not contain plagiarized, falsified or fabricated material;
    • For a period of two years from the date of this notice, you are required to submit
       assurances to the OIG from a responsible official of your employer that any proposal or
       report you submit to NSF as a Principal Investigator (PI) or co-PI does not contain
       plagiarized, falsified or fabricated material; and     ·
                                                                                             Page 3
    •   For a period of two years from the date of this notice, you are barred from participating as
        a peer reviewer, advisor, or consultant for NSF.

All certifications and assurances should be submitted in writing to NSF's Office of Inspector
General, Associate Inspector General for Investigations, 4201 Wilson Boulevard, Arlington,
Virginia, 22230.

Procedures Governing Appeals

Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal of this
finding, in writing, to the Director ofthe Foundation. 45 CFR 689.10(a). Any appeal should be
addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, the
decision on the finding of research misconduct will become final.                ·

. For your information, we are attaching a copy of the applicable regulations. Should you have
  any questions about the foregoing, please contact                                        at
  (703) 292-8060.



                                                      Sincerely,


                                                 ~~~
                                                      Fae Korsmo
                                                      Senior Advisor to the Director



 Enclosures:
 Investigative Report
 45 CFR Part 689
